<html>
<title> - HEARING ON ADVANCING EFFECTIVE CONSERVATION POLICY WORLDWIDE: SUCCESSES, CHALLENGES, AND NEXT STEPS AND MARKUP ON H.R. 4819, DELTA ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                     HEARING ON ADVANCING EFFECTIVE
                     CONSERVATION POLICY WORLDWIDE:
                 SUCCESSES, CHALLENGES, AND NEXT STEPS
                   AND MARKUP ON H.R. 4819, DELTA ACT

=======================================================================

                           HEARING AND MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-135

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-172PDF                 WASHINGTON : 2018                 
 
 
 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           HEARING WITNESSES

Ms. Gretchen S. Peters, executive director, Center on Illicit 
  Networks and Transnational Organized Crime.....................     4
Mr. Dave Stewart, executive vice president and general counsel, 
  Vulcan.........................................................    14
Elizabeth L. Bennett, Ph.D., vice president for species 
  conservation, Wildlife Conservation Society....................    21

      LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING RECORD

Ms. Gretchen S. Peters: Prepared statement.......................     7
Mr. Dave Stewart: Prepared statement.............................    16
Elizabeth L. Bennett, Ph.D.: Prepared statement..................    23

                               MARKUP ON

H.R. 4819, To promote inclusive economic growth through 
  conservation and biodiversity programs that facilitate 
  transboundary cooperation, improve natural resource management, 
  and build local capacity to protect and preserve threatened 
  wildlife species in the greater Okavango River Basin of 
  southern Africa................................................    50
  Amendment in the nature of a substitute to H.R. 4819 followed 
    by the Honorable Edward R. Royce, a Representative in 
    Congress from the State of California, and chairman, 
    Committee on Foreign Affairs.................................    58

                                APPENDIX

Hearing/markup notice............................................    70
Hearing and markup minutes.......................................    71
Markup summary...................................................    75


                     HEARING ON ADVANCING EFFECTIVE



                     CONSERVATION POLICY WORLDWIDE:



                 SUCCESSES, CHALLENGES, AND NEXT STEPS



                   AND MARKUP ON H.R. 4819, DELTA ACT

                              ----------                              


                         TUESDAY, MAY 22, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Mr. Royce. This hearing will come to order. One of the 
great things about America is that we strive to be better. We 
work hard and we innovate to create better opportunities. We 
recognize the responsibility to leave future generations better 
off. It is this mindset that birthed the modern conservation 
movement, a movement that Teddy Roosevelt aptly deemed 
democratic in spirit, purpose, and method.
    Indeed, even before the Founding Fathers, Americans had 
long believed that this country's abundant resources should not 
be available just to the well off, but to everyone. Of course, 
as Roosevelt and other leaders in the late 19th century 
realized, America's resources were not limitless. Smart 
development and conservation would be necessary to protect our 
natural resources. Yellowstone, the world's first national 
park, soon followed.
    Today we know that these aren't just U.S. issues, they are 
global issues. By helping others conserve their natural 
heritage we ensure a brighter future for our own children. So 
many of those children are captivated by elephants and rhinos 
and cheetahs and many other majestic species, but it also is 
helping to improve the lives of millions, the lives of children 
in Africa who call places like the Okavango River basin their 
home.
    As a member of this committee, I have long worked to use 
this platform to make a difference in this fight. I remember 
when we were drafting the Congo Basin Forest Partnership 
legislation back in 2002. That followed a trip then-Secretary 
Colin Powell had made to that awe-inspiring landscape. We 
launched the International Conservation Caucus in the House as 
a means to build support for the effort. Back then the interest 
was limited. Only a handful of my colleagues appreciated the 
link between good natural resource management, sound economic 
growth, and national security. Today the ICC is one of the 
largest bipartisan caucuses on Capitol Hill. The ICC was 
critical to enacting the End Wildlife Trafficking Act in 2016 
to help combat unprecedented levels of wildlife poaching and 
trafficking. Indeed, estimated at $10 billion a year, wildlife 
trafficking is one of the largest black markets in the world, 
benefiting terrorist groups like the Lord's Resistance Army and 
Al-Shabaab. To help bolster our national security, the End 
Wildlife Trafficking Act rightfully put trafficking of 
threatened species on par with weapons and drug trafficking as 
threats, and it has helped to empower law enforcement and park 
rangers on the front lines.
    Last fall, the U.S. Fish and Wildlife Service successfully 
completed Operation Jungle Book. Now that was in Southern 
California. It was the biggest wildlife trafficking bust in the 
state of California's history. As the U.S. has pushed forward 
others have followed. Beijing is to be commended. China is to 
be thanked for taking steps to follow through on its domestic 
ivory market ban announced in 2017. Few predicted such 
progress. Similar bans are pending in Hong Kong and in 
Singapore, and the U.K. recently announced its strictest ivory 
ban to date.
    But many challenges remain. Later, we will be marking up 
legislation that will help Southern Africa's critical Okavango 
River basin. This magnificent but fragile inland delta supports 
more than 1 million people and it has the largest remaining 
population of wild elephants in the world. Alarmingly, unwise 
development and wildlife poaching are threatening to destroy 
the communities that rely on responsible management of this 
watershed. Like we did with the Congo Basin Forest Partnership, 
our goal is to strengthen coordination among the key players in 
the region.
    Wildlife and water don't know borders. For conservation to 
be impactful we need governments, we need the NGOs, and we need 
the private sector all working together. Our world's well-being 
depends on this and it depends on many more such efforts. So 
with that I will turn to Mr. Eliot Engel, the ranking member of 
this committee.
    Mr. Engel. Thank you, Mr. Chairman, for calling this 
important hearing. And let me say that here in Congress we 
didn't hear a lot about wildlife trafficking and the way it 
intersects with our national security concerns before you, Mr. 
Chairman, put this issue on our radar screen. You have 
demonstrated extraordinary leadership on conservation and 
wildlife issues for many, many years. And let me just say the 
impact of your efforts will be felt well into the future both 
here in Congress and around the world.
    To our witnesses, welcome to the Foreign Affairs Committee. 
In particular, I would like to thank Dr. Bennett from the 
Wildlife Conservation Society, in my backyard, for being here 
today. WCS is based at the Bronx Zoo right next to the 
congressional district I represent. It used to be in my 
congressional district, but reapportionment took it out but not 
because I wanted it to be taken out. But I have really enjoyed 
working with many of your colleagues over the years. It is just 
extraordinary work that you do and your organization does. And 
particularly, I want to single out John Calvelli who used to be 
my staff director here for many years in Washington.
    We focused a great deal on the challenge of wildlife 
trafficking in recent years, but poaching is still hovering at 
crisis levels. The number of Asian elephants has declined by 
roughly a third over the last 10 years. Rhino populations have 
been decimated with only about 30,000 left in the wild. The 
most trafficked mammal in the world, the pangolin, is seriously 
endangered, and the list goes on and on. And this is just 
wrong. I don't want the next generation to grow up only knowing 
about elephants from the history books. We cannot allow these 
wonderful animals to disappear forever.
    But one of the main reasons we talk about this issue here 
in the Foreign Affairs Committee is that we have a national 
security interest in putting a stop to wildlife trafficking. 
Just like trafficking in drugs, weapons, and people, wildlife 
trafficking feeds corruption, undermines the rules of law, 
threatens economic prosperity, and drives instability. Thanks 
to Chairman Royce, the End Wildlife Trafficking Act became law 
in 2016, and today the administration is coming up with a 
strategy to ramp up cooperation with the 26 countries that are 
major sources, transit points, or consumers of wildlife 
trafficking, what we call focus countries.
    We also need to pay more attention to the three countries 
designated as countries of concern in which government 
officials are complicit in the illegal wildlife trade. There 
are a range of things we can do to tackle the problem of 
wildlife trafficking. We can partner with other governments to 
train park rangers and equip them with cutting edge 
technologies to counter poachers, we can help identify and take 
down the international criminal networks responsible for so 
much of the illicit wildlife trade, and we can support efforts 
to reduce the demand for wildlife products. I look forward to 
hearing from our witnesses on their important work in these and 
other areas.
    One final point, when it comes to conservation the elephant 
in the room, so to speak, is climate change. All our efforts to 
protect habitats and species will mean nothing if we don't 
protect the environment upon which all these animals and all of 
us depend. Literally, every country in the world except the 
United States is now party to the Paris Climate Accord aimed at 
curbing climate change. We cannot speak credibly on the issue 
of wildlife trafficking if we continue to isolate ourselves 
from the rest of the world when it comes to climate change.
    So again I thank you, Mr. Chairman. I thank you for your 
work through the years on this important issue, and I yield 
back.
    Mr. Royce. Thank you, Mr. Engel.
    This morning I am pleased to welcome our panel of 
distinguished guests to the committee. We have Ms. Gretchen 
Peters. She is the director of the Center on Illicit Networks 
and Transnational Organized Crime. We have Mr. David Stewart, 
executive vice president and general counsel for Vulcan. Vulcan 
is a philanthropic foundation that develops new technology to 
combat poaching and sustainably manage national parks. And we 
have Dr. Elizabeth Bennett, vice president for Species 
Conservation at the Wildlife Conservation Society. And we 
appreciate them making the trek to be with us here today, and, 
without objection, the witnesses' full prepared statement will 
be made part of the record. The members are going to have 5 
calendar days to submit any statements or questions or any 
extraneous materials for the record.
    So if you would, Ms. Peters, we will start with you if you 
want to summarize your remarks for 5 minutes. And after the 
three of you are done we will go to questions.

STATEMENT OF MS. GRETCHEN S. PETERS, EXECUTIVE DIRECTOR, CENTER 
     ON ILLICIT NETWORKS AND TRANSNATIONAL ORGANIZED CRIME

    Ms. Peters. Thank you, Chairman Royce, Ranking Member 
Engel, and distinguished committee members for inviting me here 
today. It is a great honor to have an opportunity to comment on 
U.S. policy toward the global illegal wildlife trade. I run 
CINTOC, a strategic intelligence organization that supports 
governments and foundations to find and disrupt hidden criminal 
networks. Not just wildlife networks, but all types of crimes.
    If you remember just one thing that I say today, please 
remember this. There are just a handful of powerful crime 
syndicates that traffic the majority of illegal wildlife 
products moving from Africa to Asia and we know who they are. 
These networks can and should be the target of our national 
security and law enforcement apparatus not just because they 
are wiping out iconic species like the elephant, the rhino, and 
the pangolin, but for all the dangerous activities that they 
engage in from smuggling people, drugs, weapons, selling 
uranium to Iran, deforestation, and illegal mining. This is an 
organized crime threat and a national security threat and we 
must begin to treat it as such.
    On the positive side, we don't need any new laws to target 
these networks, as Chairman Royce went through some of the 
recent legislation that has been passed that is terrific. 
Existing legislation on transnational organized crime is well 
equipped to take them down and I applaud Congress and both the 
Obama and Trump administration for sharpening our laws on 
wildlife crime in particular.
    I have three points to make today. One, focus on the 
networks. What we do need is a properly resourced, 
multinational, multiagency task force focused on these key 
networks operating between Africa and Asia. To a large extent, 
the U.S. Government continues to treat wildlife crime as a 
conservation problem, managing and resourcing programs to 
reduce wildlife crime separately from other anti-crime 
activities. This stovepiping stifles interagency collaboration, 
it causes inefficiencies that ultimately hinder the 
effectiveness of law enforcement efforts, and it also causes 
missed opportunities to target the transnational organized 
crime networks for the myriad crimes they commit.
    We have witnessed this convergence around the globe. In 
parts of Africa, wildlife crime funds terrorists, insurgents, 
violent bandits, and rogue states like North Korea. From Mexico 
narcos smuggling fish bladders to Iranian back networks moving 
uranium and ivory, crime networks that traditionally smuggled 
only drugs, guns, and people have diversified into smuggling 
wildlife and timber because it represents high profit, low risk 
alternative.
    Now I am not saying that wildlife crime converges with 
other serious crime at every step of the illegal wildlife 
supply chain and I am not suggesting that we need to send SEAL 
Team 6 into the Okavango Delta to protect animals. That would 
be ridiculous. What I am saying is that we need our security 
apparatus focused on the powerful transnational crime 
syndicates that are moving illicit goods transnationally. These 
are also the crime syndicates that are financing poaching.
    We have had some real law enforcement success stories here 
in the United States including Operation Crash and Operation 
Jungle Book. I also supported a DEA operation to extract four 
smugglers from Kenya on narcotics charges last year. Two of 
those smugglers were also part of the largest ivory trafficking 
ring on the Swahili coast. However, what I have observed also 
is that governments in Asia, Latin America, and Africa have 
neither the political will nor the investigative, 
prosecutorial, nor legislative capacity to take on the most 
powerful crime networks that are moving wildlife and other 
illicit goods.
    The U.S. can and should take action against major crime 
syndicates, using U.S. extraterritorial legislation while also 
expanding technical and financial assistance to range and 
transit states to strengthen their own criminal justice 
responses to wildlife crime. I urge the U.S. Congress to 
resource a transnational effort to investigate, analyze, and 
interdict the most powerful crime networks operating between 
sub-Saharan Africa and Asia. Let's not just focus on wildlife 
crime. Let's get them for all of their illegal activities.
    Two, we need to build constituencies. The U.S. Government 
needs to engage trusted partners in the NGO and conservation 
community, some of whom are sitting on, literally, terabytes of 
data about wildlife trafficking networks that intersect with 
U.S. international and regional security interests. This 
engagement should be handled privately and quietly. Many 
organizations fighting wildlife crime and human trafficking in 
Asia, Africa, and Latin America are doing so at great personal 
risk to themselves.
    We also need to be sharing analysis about these convergence 
patterns with foreign security officials in Asia in order to 
spur their cooperation. Authorities in China, Malaysia, 
Vietnam, and other consumer nations are not concerned about the 
wildlife trade, but they will likely take a greater interest if 
they realize its close connection to the illicit drug trade 
which does worry them. Three, we need to break the systems 
supporting wildlife crime. It is too easy for criminals to hide 
in the cracks in the global financial, transport, and 
communication system.
    We at CINTOC have been focused this year on the social 
media industry. There is an astonishing amount of wildlife 
being traded on U.S. publicly listed social media firms 
including Facebook and WeChat. Having analyzed thousands of 
posts for illegal ivory on social media, CINTOC has concluded 
the social media industry is a primary enabler connecting 
illegal wildlife traders to customers in a marketplace that is 
global, anonymous, and at this point, completely free of 
regulation.
    These firms are literally facilitating the elephants' 
extinction. The National Whistleblower Center has filed 
complaints to the Securities and Exchange Commission about this 
illegal activity, and if Congress wants action now it should 
urge the SEC to utilize its regulatory power against these U.S. 
publicly listed firms. I also urge Congress to enact 
legislation along the lines of what banks face with regards to 
money laundering. Social media firms should have to report 
suspected criminal activity and collaborate with law 
enforcement to take it off their platforms.
    So three key points today: Focus on the networks, we know 
who they are; two, resource a transnational law enforcement 
effort and diplomatic effort to target these big networks; and 
three, clean up the systems that facilitate wildlife crime that 
we can impact right here in the United States. Thank you for 
taking the time to hear what I have to say.
    [The prepared statement of Ms. Peters follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       ----------                              

    Mr. Royce. Thank you, Ms. Peters. And we are involved with 
Facebook in terms of the points you have raised in order to try 
to get them engaged in the coalition to take decisive action on 
this.
    We go now to Mr. David Stewart, our next panelist here.

  STATEMENT OF MR. DAVE STEWART, EXECUTIVE VICE PRESIDENT AND 
                    GENERAL COUNSEL, VULCAN

    Mr. Stewart. Chairman Royce, Ranking Member Engel, members 
of the committee, I am honored to appear before you today to 
discuss park management, wildlife trafficking, and poaching. I 
also want to thank you for your leadership in conceiving and 
passing the End Wildlife Trafficking Act during the last 
Congress and continuing to further this important work with the 
DELTA Act during this Congress. Vulcan is proud to support both 
impactful pieces of legislation.
    I will start my testimony today with a positive comment 
about this terrible crime. Across administrations, across the 
aisle, and across our Government, poaching and wildlife 
trafficking are increasingly being recognized not only as an 
environmental tragedy but as an urgent threat to U.S. national 
security interests. This shift in thinking is essential to 
tackling this challenge. The focus must now be on how we bring 
government, business, and philanthropy together to harness our 
combined power and resources to take on wildlife trafficking, 
to dismantle these criminal networks that are driving it, and 
to preserve our natural heritage while protecting global 
security.
    Today I would like to feature what Vulcan is doing to 
support these efforts and I will start with a brief video clip, 
hopefully.
    [Video.]
    As highlighted in the clip, the 2016 Great Elephant Census 
provided urgently needed and previously unavailable data on the 
size and distribution of savanna elephant populations across 18 
range states in Africa, identifying where they and other 
species had been most impacted by poaching and where 
conservation efforts were working well. We unfortunately 
discovered a population decline of 30 percent in those 7 years 
which accelerated over that period.
    Also featured in the clip is the Abu Concession, our 
455,000-acre wildlife reserve in the Okavango Delta in 
Botswana. There we operate two safari camps and our own anti-
poaching force, fund conservation related research including 
development and operation of drones for integration into anti-
poaching operations, and work with local communities. My 
written testimony goes into detail about our park management 
approach, but in summary we focus on actively securing the park 
against poaching, operating businesses such as safari camps 
that provide tangible benefits to the local communities through 
employment, through commitment of revenues to build local 
infrastructure so that communities see wildlife as an asset 
that will ultimately reward them, wildlife crime as a threat to 
that asset and their well-being, and prevention of such crime 
as their responsibility. Our on-the-ground park operations 
along with broad engagement across Africa with the GEC 
demonstrated to us the overwhelming amount of data that need to 
be captured in order to effectively protect elephants and other 
wildlife. Therefore, we developed a product called DAS, which 
stands for Domain Awareness System.
    DAS is a military style command and control communications 
system for conservation. It integrates many different data 
sources and enables park management in real time to visualize 
wildlife, rangers and potential illegal activity that threatens 
them, and to deploy the rangers and other resources to 
interdict the illegal activity before they can harm the 
wildlife. This enables park managers to make immediate 
decisions to officially deploy resources for interdiction and 
active wildlife management. DAS is currently deployed in 12 
parks in eight countries in Africa, including three that have 
been identified as ``focus countries'' by the U.S. State 
Department. Among many other countries we plan to deploy DAS 
next, six of them are U.S. ``focus countries.''
    Moving beyond park operations, Vulcan is also providing 
resources to organizations like the PAMS Foundation and the 
National and Transnational Serious Crime Investigation Unit in 
Tanzania, the Wildlife Crime Prevention Project and 
Conservation South Luangwa in Zambia, and the Lilongwe Wildlife 
Trust in Malawi. In particular, NTSCIU has in recent years been 
instrumental in over 1,400 arrests and 360 prison sentences 
issued for wildlife crimes.
    In the years to come, Vulcan will have invested upwards of 
$60 million in terrestrial and maritime technologies to counter 
wildlife crime. We don't expect to recoup this investment, but 
we also know we can't scale it alone. We are pursuing public-
private partnerships with relevant governments and 
international organizations to bring our tested technologies to 
scale.
    Thank you for your tireless work on these issues, and thank 
you for the opportunity to testify before you today and I look 
forward to your questions.
    [The prepared statement of Mr. Stewart follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               ----------                              

    Mr. Royce. Thank you, David.
    Doctor?

 STATEMENT OF ELIZABETH L. BENNETT, PH.D., VICE PRESIDENT FOR 
      SPECIES CONSERVATION, WILDLIFE CONSERVATION SOCIETY

    Ms. Bennett. Chairman Royce, Ranking Member Engel, and 
members of the committee, thank you for providing this 
opportunity to testify. Please accept my submitted testimony 
for the record as I will summarize that today.
    WCS is deeply concerned by the alarming rate of species 
decline due to illegal hunting, trafficking, habitat loss, and 
human-wildlife conflict. I will summarize what is working, 
identify gaps, and recommend where the U.S. Government and 
Congress in particular can assist. WCS was founded in 1895 with 
the goal of saving wildlife and wild places. Today we work in 
more than 60 countries and across the world's oceans. Our work 
is grounded in high quality science and in strong long-term 
partnerships with governments, local communities and indigenous 
groups.
    Poaching for the illegal wildlife trade is devastating many 
species around the world. A hundred years ago, up to 100,000 
tigers roamed Asia. By 2011 that was down to just about 3,000. 
African forest elephants declined by 62 percent over 10 years 
due to killing for their ivory. Many other species are affected 
by high levels of poaching for the trade, for the medicine, 
food, and pet trades such as pangolins, songbirds, parrots, 
tortoises and turtles, sharks and rays. Many large charismatic 
species threatened by trafficking play key ecological roles. 
Their loss has many implications including loss of food 
security for marginalized rural people and reduced resilience 
to climate change.
    The illegal trade is often driven by organized criminal 
groups with links to other forms of organized crime and that 
weakens rule of law and security for communities living 
alongside wildlife. In recent years, the world is taking this 
threat seriously. The U.N. General Assembly has passed three 
resolutions on wildlife trafficking. The U.S. Government 
expanded the executive order on transnational organized crime 
to include wildlife trafficking. And thanks to the leadership 
of Chairman Royce and Ranking Member Engel, wildlife crime 
serve as predicate offenses to Federal money laundering 
prosecutions.
    Preventing poaching requires the establishment of protected 
areas and managing them effectively. WCS with partners 
developed the GPS-based software enforcement program, SMART, 
which is now deployed in over 600 sites in 55 countries. In 
addition to increasing patrol efficiency, this increases 
transparency and helps reduce corruption. With long-term 
programs and sufficient investment, poaching can be curtailed. 
In Huai Kha Khaeng National Park, Thailand, in the past 10 
years tiger numbers have increased by 50 percent. With the 
critical support of USAID's CARPE program WCS in northern 
Congo's Nouabale-Ndoki National Park trains rangers and 
conducts SMART patrols. Forest elephant numbers there have 
remained stable since 2006 even while they have plummeted 
across much of Central Africa.
    WCS works with governments and other law enforcement 
partners to dismantle wildlife trafficking networks. With the 
vital support of USAID, U.S. Fish and Wildlife Service, and INL 
we have achieved measurable success. In Indonesia, WCS's 
Wildlife Crimes Unit gathers intelligence and assists law 
enforcement. Since its formation in 2003, more than 1,000 
prosecutors have been trained, 70 percent of the tiger criminal 
networks in northern Sumatra have been dismantled, and more 
than 600 suspects have been arrested with a sentencing rate of 
over 90 percent. Support from INL is also helping us to act at 
transcontinental levels. We are working along key trade routes 
such as the one between Mozambique and Vietnam and China. Even 
though we are having success, we are not bringing this up to 
scale.
    Urgently needed is continued U.S. Government funding. WCS 
is deeply concerned about the administration's proposed cuts to 
critical programs to combat wildlife trafficking in the fiscal 
year 2019 budget. We thank the 74 Members of Congress and 26 
senators who urged appropriators to fully restore cuts at a 
time when so much more needs to be done. These include 
restoring level funding for the USAID biodiversity program, 
CARPE, and for that to commit to a fourth phase, the Combating 
Wildlife Trafficking initiative implemented by INL and USAID 
and the U.S. Contribution to the GEF.
    Regarding the End Wildlife Trafficking Act, we urge this 
committee to ensure full consultations with NGOs operating in 
focus countries. And regarding the DELTA Act, we urge the 
committee to fully integrate protected area management and land 
use planning into the strategy. We appreciate that the U.S. 
Government has successfully raised the profile of wildlife 
trafficking as serious crime and provides tools and attaches 
overseas to tackle it. But it is vital that the U.S. continues 
to demonstrate its leadership on the global stage. We need 
focused, coordinated action and leadership if the world's wild 
species and vulnerable people living alongside them are to 
thrive to future generations. Thank you very much.
    [The prepared statement of Ms. Bennett follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
                 ----------                              

    Mr. Royce. Thank you. So as you indicated, Dr. Bennett, you 
had a situation where the tiger numbers have increased by 50 
percent in the park land there in Thailand as a result of these 
patrols. And the real question is, what is the most effective 
steps we can take under the End Wildlife Trafficking Act?
    We had some comments from Ms. Peters about Operation Crash 
and Operation Jungle Book. And I would ask you, Ms. Peters, 
what have we learned from these operations and how can law 
enforcement better utilize the authority that we have given 
them here now that we have the working group? As you say, the 
SEC should use its regulatory authority to push as well on 
Facebook, give us your thoughts there. How can we better 
coordinate this interagency process? How can we get these 
convictions?
    Ms. Peters. Chairman Royce, I think there have been some 
real successes as I said in these U.S.-based operations and 
both Operation Crash and Operation Jungle Book, which involves 
cooperation between U.S. Fish and Wildlife and Homeland 
Security and Customs, are examples of that. I think where there 
is room for more interagency collaboration is in the 
international sphere. Those were both operations here in the 
United States.
    The real critical threat to wildlife outside of the social 
media issue, the real critical threat to wildlife is in other 
parts of the world, the enormous amounts of ivory, pangolin 
scales, rhino horn that have been trafficked from Africa, to 
Asia in particular, and other products, environmentally 
sensitive products, rare hardwoods, tropical fish, et cetera. 
There has been a real increase that I have observed in Africa 
in cooperation between the Drug Enforcement Administration and 
Fish and Wildlife law enforcement.
    The Drug Enforcement Administration is also collaborating 
now for the first time in its history with conservation groups. 
I was just on the phone with an agent in sub-Saharan Africa, I 
won't say which country, yesterday, who was trying to get 
information from me about wildlife trafficking networks in that 
country. They are starting to recognize, or I should say that 
organization very much recognizes that the networks that are 
trafficking wildlife are also moving dangerous drugs and that 
they can get better wins from collaborating with them. And so 
this is an area where I think we can get more cooperation.
    I also want to take a moment to thank you, Chairman Royce, 
for your support during the operation. We supported in Kenya, 
the ICCF was absolutely instrumental in helping us get those 
four men extracted from Kenya. Not just your members here in 
Congress pushing the administration to ask Kenya to have them 
extradited, but also Dr. Amina Abdalla, the head of the ICCF in 
Kenya, brought together a whole group of Kenyan congress 
members and pushed the Kenyan Government as well. So that type 
of legislative or congressional support is another area where I 
think we can have real improvement.
    And I think there could be real engagement in consumer 
nations to help the Chinese and the Vietnamese, and the 
Malaysians in particular, understand the links between, or the 
convergence between narcotics, weapons trafficking, human 
trafficking, and the wildlife trade. The same networks that 
have the capacity to move a container of heroin through the 
global transport system have the capacity to move a container 
with ivory or pangolin scales, and it is following the same 
routes.
    We have mapped the supply chains that are moving heroin 
from Afghanistan into Africa. In some cases the seizures have 
the same bags from Pakistan with Pakistani Rice on them. It is 
the same, the paths aren't exactly the same. The drugs are 
coming out of Afghanistan into the Swahili coast, then it gets 
repackaged. It goes back to Asia. The boats go back to Asia. 
There is intersections with human trafficking particularly with 
regard to the rhino horn trade in Mozambique and South Africa 
going into Vietnam. So there is enormous amount of data to be 
exploited.
    Mr. Royce. That is why we have the task force. We just want 
those tools that you have laid out. We want them to apply them 
effectively in doing their job.
    I have to ask you, Mr. Stewart, how do we best get the buy-
in from the people that call these areas home? How do we ensure 
that they feel the benefits of conservation in the Okavango 
River basin where, you know, obviously we are going to need 
their involvement?
    Mr. Stewart. Mr. Chairman, I think there are at least three 
components to that--creation of incentive structures, 
education, and storytelling. In our experience, local 
communities will reliably and consistently participate in 
conservation efforts only if they see tangible benefits from 
preserving the wild animals and the natural resources therein. 
We can do that through employment. Tourism provides a great 
opportunity for that and that is something we have done.
    So provide jobs for people who live in the local 
communities, use revenues from those businesses to build up 
infrastructure like basics--bore holes for water, building 
schools, providing food for students at school, and again that 
gives some buy-in. So that these wild animals are not just the 
things that endanger their kids, knock down their fences, and 
eat their crops, but they are actually an asset they see they 
have an interest in and see the benefit from that. That, I 
think, helps build the political will for them to want to take 
wildlife crime seriously and support those efforts as well as 
provide intelligence to the efforts. On education, it is 
unfortunate that many people that live right along the border 
of parks are completely disengaged from what goes within and 
from seeing the animals that live therein and the benefits that 
come from that. So, it is important to engage community members 
at a young age, programs and initiative that involve school 
children, conservation clubs at school that are funded by 
conservation or teach about conservation.
    And finally storytelling. Our Vulcan Productions unit has 
done a number of documentaries and television series that 
explore conservation and wildlife issues related to wildlife 
trafficking, but it is important to show those not only here in 
the West but in the elephant range states and places where 
these other wildlife live. So we brought our documentary, The 
Ivory Game, to communities in Kenya, Tanzania, Zambia, and 
Malawi are working with local schools and nonprofit 
organizations to showcase the story of what is happening to the 
animals that live in those countries, and working closely with 
the U.S. Embassies to use these films for community screenings 
where poaching and wildlife crimes are frequent reality.
    Mr. Royce. Thanks, Mr. Stewart.
    We go now to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. I think obviously we 
should do everything possible through technology, law 
enforcement, and other means to prevent poachers from 
slaughtering threatened species, but as long as there is demand 
for ivory, rhino horn, and other wildlife products there are 
obviously going to be people willing to take the risk to supply 
that demand and we obviously won't be able to stop all of them.
    So it seems to me that we also need to focus on reducing 
demand, so let me ask you, Dr. Bennett, since you really have, 
I am aware of the Wildlife Conservation Society and the good 
work you do. Tell us what we can do to better convince 
consumers mainly in Asian countries to stop buying these 
products. And I know we have seen advertisements from time to 
time with celebrities and horrific pictures of dead elephants. 
Have those advertisements and pictures made a difference and 
what other approaches might be effective that we are not doing 
that we should do?
    Ms. Bennett. Thank you very much, Ranking Member Engel, for 
that. It is an extremely good question because, at the end of 
the day, while there is still the demand, as you say, there 
will still be the poaching. One thing that can be done is just 
straight change the law which China has done for ivory. There 
was a National Geographic survey done a few years ago now which 
asked members of the public in China what would cause them to 
stop buying ivory, and the single greatest answer was if it is 
made illegal and that has now been done. It has been made 
illegal, which is great, and now there is the task of enforcing 
it and taking it off the market.
    That doesn't actually necessarily reduce people wanting to 
buy it and buying it through the black market and one of the 
real concerns is that people from China and Vietnam will 
actually go to other countries with weaker laws and weaker law 
enforcement on their borders, so go and take a holiday in Laos 
or Cambodia and bring back some wildlife products. It is a very 
hard one to answer.
    We know a lot about the science of stopping poaching and a 
lot about how to stop trafficking. There is no one clear answer 
to how to change people's behavior. And a lot of people have 
tried different things, but it is not very clear what changes 
people's behavior. So, for example, within China for shark fin 
there have been a lot of campaigns including using celebrities 
about buying shark's fin, which have probably had quite an 
effect in building up a groundswell, but the single thing that 
took shark's fin off the market was President Xi Jinping saying 
this is a sign of sort of corruption and affluence and luxury, 
and stopped government officers buying shark's fin.
    So it is really hard to know. And legal bans themselves 
don't necessarily change demand. In fact, for some things such 
as pangolin, people buy it because it is illegal and that gives 
an additional status because it shows that you are above the 
law. So it is a very complex question. We don't actually know 
the answer.
    There is a project going on at the Oxford Martin School in 
the U.K. for 3 years at the moment to examine exactly that 
question, what do we know and what works and therefore how can 
we change our programs in future.
    Mr. Engel. Thank you very much.
    Ms. Peters, let me ask you this. You note that Facebook has 
become a major platform for selling illegal wildlife products. 
Tell me how you think they are acting. Do you think Facebook is 
taking this problem seriously? Have you seen any improvements 
in their practices? Does the same problem exist on other Web 
sites or other social media platforms?
    Ms. Peters. Yes, the problem exists on a number of social 
media platforms. Facebook in particular has been made aware of 
this problem multiple times over the past few years. The 
Wildlife Justice Committee held a 2-day seminar in The Hague in 
2015 and I don't believe Facebook even sent anybody. So a 2-day 
seminar was held about the problem, a number of reports have 
been published by WWF, by IFAW, and other organizations 
detailing the problem, and Facebook and a number of other tech 
firms have joined a coalition promising to remove wildlife from 
their platforms by 2020. Our investigators were online looking 
at the issue just last week and it was business as normal.
    I think that the days for talking to the leaders of social 
media firms are over. They have been told multiple times by 
multiple organizations including U.S. Fish and Wildlife law 
enforcement that this problem exists and they have done nothing 
about it.
    Mr. Engel. You know, Ms. Peters, we had Mr. Zuckerberg here 
about 3 or 4 weeks ago. I am so sorry that we didn't ask him 
this question.
    Ms. Peters. A number of members did ask him about it and he 
said he was aware it was a problem and they were working on it. 
I think they would work a lot faster if the threat of a 
multimillion dollar fine from the SEC was hanging over their 
heads.
    Mr. Engel. And if I may, thank you.
    Let me ask Mr. Stewart, since I have asked the other two 
questions, the administration in its fiscal year 2019 budget 
unfortunately proposed significant reductions for wildlife 
trafficking and other key international conservation programs. 
I wonder if you could talk a little bit about the impact that 
those proposed funding levels have on our ability to 
effectively address these issues. Obviously with less money you 
can do less, but where do you see it impacting?
    Mr. Stewart. Well, clearly more resources are good for the 
effort. Certainly I think Fish and Wildlife having attaches in 
various Embassies throughout Africa have been a great force. We 
have been more focused though, I think, in terms of what to do 
given the situation in trying to encourage public-private 
partnerships to make sure that government funds that are 
available are spent as effectively and efficiently as they can 
be.
    And I think a great example of that is the bill sponsored 
by a number of members of the committee, the DELTA Act. It is 
important that the bill calls for government to work with 
business and to work with philanthropy in developing technology 
and applying efforts across those areas. This is at least what 
we are trying to be involved in to make up for any reduced 
funding on the government part, and I think that provides a 
great path.
    And it is important as we embark on that as the DELTA Act 
calls for it to if we are going to go in and try to work with 
Angola to listen to Angola. And I think the upcoming codel that 
this committee is undertaking is an important opportunity to 
build relationships with the legislators and officials in 
Angola. In our discussions with Angola, I have heard an 
interest in diversifying the economy and when we look at the 
promising Cuando Cubango in southern Angola there is a great 
opportunity to see that development and conservation can go 
hand in hand along with agriculture, fishing, and other 
traditional----
    Mr. Engel. Thank you.
    Mr. Stewart. So that is what we are focused on.
    Mr. Engel. Thank you. My time is up. Thank you, Madam 
Chair.
    Ms. Ros-Lehtinen [presiding]. Thank you.
    The Chair recognizes herself. First, I wanted to commend 
Chairman Royce and the other co-chairs of the International 
Conservation Caucus for their leadership and efforts to ensure 
that the United States implements stronger and more effective 
conservation policies. I am not only a proud member of the 
Caucus, but I am also pleased to sign on to the DELTA Act that 
we have been discussing as an original co-sponsor and I do 
sincerely hope that we pass this measure after our hearing 
today and quickly bring it to the floor for a vote.
    The DELTA Act as you pointed out is vital to creating a 
transnational strategy that leverages the experience and the 
expertise of stakeholders in the private and public sectors to 
combat wildlife trafficking and to spur economic growth in the 
Okavango River basin. It also authorizes key U.S. assistance 
programs to prioritize and promote development through 
conservation and building partner nations' anti-poaching 
capacity. We have a tremendous opportunity before us to take 
action now while we still have the ability to protect Africa's 
most expansive inland water system and it is still in all of 
our interests to do so before it is too late. We also have an 
opportunity to address conservation policy worldwide and that 
is why this hearing comes at a critical time as we are now at a 
crossroads. The high demand for ivory in Africa and other 
wildlife products in Asia has seen poaching and trafficking 
rise to new levels, new levels that threaten the very existence 
of some of the planet's most precious species. But this in turn 
has raised awareness and has led many nations to begin to take 
meaningful action to help reverse this trend. And key to this 
has been the United States leadership through initiatives such 
as Chairman Royce's End Wildlife Trafficking Act and through 
other conservation and trafficking programs as well as law 
enforcement efforts.
    Many of our colleagues on this committee have focused in 
recent years on the role of transnational criminal 
organizations and terror groups in illegal wildlife 
trafficking. The high demand for some of these products has 
made this illicit activity a lucrative one for these groups and 
the lax security measures, whether the result of inefficient 
resources, corruption, or other deficiencies makes this 
practice a serious threat to U.S. national security interests. 
By countering these illegal wildlife trafficking activities of 
these illicit groups we have the added benefit of cutting off a 
critical supply of revenue while also protecting endangered 
species.
    But to be successful as you have pointed out it has to 
start with getting host country buy-in and it is not a one-
size-fits-all. You have cited some examples where it has worked 
in some countries, but in many cases state actors are complicit 
in these crimes with corruption oftentimes being a major 
obstacle to accomplishing our objectives. We have seen this so 
many times in places like Afghanistan, Iraq, and elsewhere.
    So my question is how do we get host country buy-in from 
governments, from local law enforcement agencies, from local 
communities to join in efforts to curb this illicit practice 
when corruption is so pervasive and it is so lucrative?
    Ms. Peters. Ma'am, you have touched on what I think is one 
of the core drivers of the conservation issue around the world, 
corruption. I think in many countries, many parts of Africa, 
corruption is the elephant's biggest threat. It can be very 
challenging to find able and willing partners in these parts of 
the world.
    I had the opportunity to work with the Government of Gabon 
as their advisor on transnational organized crime for 2 years 
and that was an environment that was very, very corrupt. We 
literally for a while couldn't find a single judge in the 
country that wasn't on the take in order to bring the cases in. 
The commander, Uvare Ekoga (phonetic), who I worked with used 
to say that corruption was a far bigger threat to him than the 
transnational criminal networks that we were trying to target.
    But we were able to find slowly but surely trusted 
partners. And with the support of President Bongo we were able 
to put them in place. But it really did take that top-down 
support from the President, from the presidency of Gabon, and 
from his secret service and some of his police. If we hadn't 
have had that we would have been lost.
    Alternatively, the project I worked on in Kenya it took 
more than 2 years to get the Akashas extradited and once they 
came out and some of them started cooperating, it became clear 
that everybody in the system, the prosecutors, the judges, 
right up to some of the leaders of that country were taking 
payoffs to stop their extradition from happening. And I can 
cite other examples in other countries.
    Ms. Ros-Lehtinen. Thank you. Those are excellent examples.
    Ms. Peters. It is a terrible problem. We do really need to 
make anti-corruption the focus and it is one the reasons that I 
argue the U.S. needs to use its extraterritorial legislation 
and not count on the notion that some of these smaller African 
nations with very, very compromised judicial systems are going 
to be able to take down these networks. We are going to have to 
do it for them.
    Ms. Ros-Lehtinen. Thank you so much. And I apologize, Mr. 
Stewart and Dr. Bennett. I went on too long and I am out of 
time.
    Ms. Titus of Nevada?
    Ms. Titus. Thank you. I want to thank Chairman Royce and 
the ranking member Engel too for making this a priority for 
this committee. I think it is very important. I am a co-sponsor 
of the DELTA Act and I look forward to its passing. I also 
thank the witnesses for the things that they have done in this 
area and I think the United States has made some progress.
    But I sense a trend that is concerning to me and some of 
the things that you have mentioned I would like to point out 
others. I think we are taking two steps forward and one step 
back. If you look at what is happening lately, you have 
proposed cuts to the budget that is going to make it difficult 
to continue in this policy area. You have several regulatory 
actions that have taken place with the Fish and Wildlife 
Service. You have the memorandum on trophy hunting, now we are 
going to consider trophies on a case-by-case basis as opposed 
to having an overall policy. And the second one that is just 
coming out more recently is that the extreme hunting rules that 
allow us now to hunt baby bears and wolf cubs in their lairs. I 
don't think that is a step in the right direction.
    And then third, you have Interior Secretary, Mr. Zinke, 
creating a International Wildlife Conservation Council. That is 
kind of like calling the agency that allows more pollution the 
Blue Sky Initiative. If you look at who is on the commission it 
is somebody from the Safari Club, the Sportsmen's Foundation, 
the director of hunting policy at the NRA, and several other 
groups that promote trophy hunting. Now if we are going to lead 
by example, I don't think these are very good examples and I 
wonder if you all would comment on what you see as problems 
that might be created by this new trend under the Trump 
administration.
    Doctor?
    Ms. Bennett. Thank you very much indeed. We share your 
concerns on all of those same issues. In relation to the trophy 
hunting issue just picking up on that one, it is a particularly 
important one because trophy hunting can be an extremely good 
conservation tool if used appropriately. And it keeps a lot of 
land, particularly in Africa but other parts of the world, 
under wild habitat by giving an economic value for it if it is 
well managed.
    So, for example, we work on an operation on trophy hunting 
of markhor sheep in Pakistan and support the local communities 
there and it is helping them to conserve the markhor sheep. But 
as an industry it is notoriously corrupt, and the U.S. by 
having very strict regulations and a good policy previously has 
not contributed to the problem. But by loosening the 
regulations then that really is a concern because it is corrupt 
all along the scale from getting licenses to hunt the wrong 
species, the wrong age, the wrong sex.
    And while the exporting countries where the hunting is 
being done we don't always have a lot of control over, but we 
have control over the importing countries for those trophies so 
yes, we share that same concern. Thank you.
    Ms. Titus. Ms. Peters?
    Ms. Peters. I also want to second what Dr. Bennett said 
about hunting in certain cases being a tool for conservation. I 
also want to second what she said about the importance of it 
being well regulated, that we have done a number of 
investigations into poorly managed hunting programs or poaching 
that is taking place under the guise of hunting particularly in 
places like South Africa with regards to rhino.
    So I agree. I don't think it is a good idea to be loosening 
regulations in the United States around hunting. We have fairly 
well managed hunting programs domestically and we should have 
the same level of legislation about it internationally.
    Ms. Titus. Mr. Stewart, do you want to add anything?
    Mr. Stewart. You know, I certainly think the efforts 
against international wildlife trafficking has a number of 
great allies in Congress both on the Democratic and Republican 
side, so I trust that those legislators will work to try to 
maintain and restore adequate funding for the international 
efforts and programs that the U.S. has been conducting that 
have been proven to be effective.
    Ms. Titus. Well, I think there is a lot to be said for 
legislation, for regulation, but also for leading by example. 
And a picture of a President's son standing over a dead 
elephant or a giraffe doesn't seem to me to be leading by 
example at a time when even China is moving in the opposite 
direction. So I think it should be an all-encompassing policy 
not just focused on the criminal aspects of it. So thank you 
very much. I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Smith of New Jersey?
    Mr. Smith. Thank you very much, Madam Chair, and thank you 
to our distinguished panel for your leadership and for your 
insights you have provided the committee today. Let me just ask 
a few questions.
    Tragically, an estimated 30,000 African elephants are 
killed every year. Eastern and central Africa continue to face 
high levels of poaching. In the last decade these regions have 
lost 50 percent of their elephant populations. And while 
populations in eastern Africa have stabilized, central African 
elephant populations continue to decline and remain deeply 
unstable for species survival. I wonder if you could explain to 
us why these discrepancies. If you could also add what happens 
in places like the DR Congo where there is extreme political 
instability, how does that exacerbate the situation?
    Let me also ask with regards to, and we have done this in 
the past, as have you, in trying to push for a greater 
integration of our antiterrorism efforts because obviously much 
money is derived from this illegality, are we coordinating 
better on that front to ensure that the LRA, groups like Boko 
Haram, Al-Shabaab, and others are not deriving profits in order 
to fund their nefarious enterprises?
    And then finally on the issue of reducing demand in Asia, 
obviously the ivory bans in China, Hong Kong, and Singapore 
were very strong steps demonstrating political will, but I am 
wondering if you can tell us--and, Dr. Bennett, you mentioned 
making it illegal how important that was in China, but is there 
also the perverse outcome where now that it is illegal it 
drives up the price which again brings ill-begotten gains to 
those who are poaching and selling ivory and other products 
abroad?
    Ms. Peters. I want to just start by saying that I think 
that at any time one is fighting a serious crime issue like 
this there have to be efforts both on the demand side and on 
the supply side. My work tends to be on the supply side 
focusing on disrupting criminal networks.
    But one of the reasons, one of the many reasons that I am 
passionate about the conservation issue is that there is that 
there is some very, I would say, proactive work going on by a 
number of big organizations like WildAid, a lot of celebrities 
are involved. There are some creative efforts to figure out 
what can be done to spur demand reduction, and as the other 
panelists have said we have seen some very positive signs from 
the government in China to tighten up its laws and to ban these 
products.
    But is it going to take work on both sides if we are going 
to save these species. My objective when I got involved in 
this, I never believed that we would be able to stop all 
wildlife crime but I thought that maybe we could knock some of 
the biggest networks off course enough to give these species 
the chance to come back. And I think now and then we have 
managed to get a punch in like when we got the Akashas 
extradited, but it is often hard to feel optimistic with the 
number of animals that are being lost.
    Now you mentioned the conditions. I just want to make one 
quick comment about that which is to say that there are some 
organizations that even in very, very difficult circumstances 
are able to save animal populations. There was a terrific story 
yesterday in the New York Times about Africa parks efforts in 
Chad in Zakouma National Park where they have brought back 
elephant populations.
    There is also a very interesting project in Mozambique in 
Gorongosa where the wildlife had virtually been wiped out by 
decades of civil war. At great expense and effort they have 
reintroduced a lot of species and that wild area is being 
restored. So these areas aren't necessarily lost forever. We 
can bring these populations back again. The rhino was almost 
poached to extinction in the 1980s and its populations were to 
some degree restored. They are under very, very serious threat 
again now, but their biggest enemies are crime and corruption. 
That is what we need to focus on fighting if we are going to 
save these species.
    Mr. Smith. Thank you.
    Mr. Stewart. I agree with Ms. Peters, and a couple points. 
On the supply side, I think we have to just make it as 
expensive and as harrowing as we possibly can to source ivory, 
to source rhino horn, to source these animals that drive it. 
Whether it is meeting the poachers on the ground or disrupting 
their international networks, we need to hit it at all points 
of the chain. I also agree with Ms. Peters, time and again it 
has been shown whether it is Grumeti in the Serengeti, whether 
it is in Gorongosa in Mozambique or elsewhere that if you 
protect a habitat with a large carrying capacity it will 
regenerate and the animals will come back. You just have to 
protect them.
    You asked about coordination. I think there is a lot more 
that we can do on the defense and intelligence side in terms of 
engaging them. Our experience is that the U.S. intelligence 
community can and wants to do more. They have been tracking 
transnational criminals and illicit financing deals for decades 
and we have got to try to figure out how to build the systems 
that have been used in other contexts to enable classified and 
unclassified data to be used together to draw connections, to 
drive useful data so that the classified information can be 
protected.
    But the lessons drawn from that in combination with other 
information can give us the way to disrupt these networks. 
There is more to do on that but the participants seem willing.
    Ms. Bennett. Thank you very much indeed for the question. 
To answer the question on why discrepancies that some of it is 
tied in with corruption, why does Botswana have the largest 
elephant population remaining, because if you look at 
Transparency International's map of countries it is the least 
corrupt country in sub-Saharan Africa. So that is one link to 
it. Another link is the fact that you have a severe difference 
between savanna and forest. Rainforests are, I mean I can't 
even see from here to you in a rainforest so looking out for 
poachers is incredibly difficult. You can do it by airplane in 
savanna, you can't in forest. So it is much more difficult to 
track and catch poachers in forest.
    And the other issue is the forest elephants have actually 
got a harder ivory than savanna elephants, and so for certain 
types of carving it is preferred and that means it has a higher 
price. So for all those reasons the rainforest countries tend 
to be the more difficult ones to deal with on the elephant 
poaching crisis.
    In terms of the ivory price, in the year prior to the ban 
actually coming into effect in China, the ivory price went well 
down in anticipation of the closure of the market. What is 
happening to it now the market is closed, I don't know, but 
certainly in the year before, in 2017, the ivory price went 
down very significantly in China.
    The one confounding issue that is going on in China, which 
is a little difficult to know quite how to deal with, is the 
large amounts of sales of mammoth ivory. And if you go around 
the markets in southern China now you see mammoth ivory for 
sale and that is not illegal. There is more and more of it 
becoming available due to climate change as the tundra in 
Siberia melts and so there is more and more accessible mammoth 
ivory.
    Ms. Ros-Lehtinen. Thank you. Thank you very much.
    Mr. Smith. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Smith.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you.
    And Dr. Bennett, if you can pull that microphone just a 
little closer to you, thank you. I appreciate it. Dr. Bennett, 
do you think the Trump administration is helpful in its 
policies with respect to what we are talking about here today?
    Ms. Bennett. Thank you very much indeed. The core things 
that are a real concern that we have talked about here today, I 
mean it is partly as was pointed out earlier with some of the 
loosening of some the regulations but the most important thing 
is the cutting of the budgets. And we are not going to solve 
this problem and the U.S. is not going to continue to be a 
leader in helping solve the problem while budgets are being cut 
because it is vital to have the resources to do this work 
around the world. Thank you.
    Mr. Connolly. Well, I mean it makes one wonder about the 
commitment at all. Let me see. Last year, Interior Secretary 
Ryan Zinke suspended all of the Interior Department's advisory 
committees including the Advisory Council on Wildlife 
Trafficking and the Wildlife and Hunting Heritage Conservation 
Council. Is that correct?
    Ms. Bennett. Yes. That is correct for that----
    Mr. Connolly. Is that a helpful step?
    Ms. Bennett. No, it is not a terribly helpful step. And the 
forming of the International Wildlife Conservation Council as 
was pointed out with the composition of its members is also not 
a very helpful step because it is not going to be a very 
objective panel.
    Mr. Connolly. So the U.S. Task Force on Wildlife 
Trafficking which was codified by the End Wildlife Trafficking 
Act has been inactive since Trump took office; is that correct?
    Ms. Bennett. Can you repeat the question?
    Mr. Connolly. Sorry?
    Ms. Bennett. Sorry. Can you repeat the question?
    Mr. Connolly. Yes, I can. I said, since Trump took office 
the U.S. Task Force on Wildlife Trafficking which was codified 
in the End Wildlife Trafficking Act by this Congress has been 
inactive. Is that helpful?
    Ms. Bennett. I am afraid I am not familiar with that. The 
transnational organized executive order on integrated wildlife 
trafficking has been helpful and that has been done under this 
administration.
    Mr. Connolly. The Trump administration in his budget 
slashed funding for international conservation programs 
including cutting USAID's biodiversity program by more than 
two-thirds and eliminating the USFW's international species 
program. Are those helpful actions?
    Ms. Bennett. No, those are not helpful actions. And in my 
written testimony we have actually put through all the cuts 
that are in there and that is a very major cause for concern. 
Thank you.
    Mr. Connolly. I just think that is important to get on the 
record. Earlier this year----
    Mr. Chabot. Would the gentleman yield?
    Mr. Connolly. Real briefly, yes.
    Mr. Chabot. Okay. Very quickly, none of those cuts in the 
Trump budget actually went into effect so they didn't really do 
anything, I think; isn't that correct?
    Mr. Connolly. Reclaiming my time.
    Mr. Chabot. Okay.
    Mr. Connolly. The point here is what the intent of the 
administration is. And while Congress has shown restraint with 
respect to Trump budget cuts, we are getting at what is the 
nature of the commitment of this administration. And my point 
is that Congress notwithstanding, we are retreating on the very 
things we are having a hearing about here today led by the 
President and his administration. And let me give another 
example. Earlier this year, Dr. Bennett, the Trump 
administration reversed, because it loves reversing, Obama-era 
ban on big game trophies including elephant tusks and lion 
hides under the supposed rationale that such trophies actually 
support wildlife conservation.
    Is there any evidence that actually trophy hunting 
contributes to wildlife conservation, Dr. Bennett?
    Ms. Bennett. Yes, it can contribute to wildlife 
conservation if it is well managed. It needs to be very well 
managed and very well controlled because it is so notoriously 
corrupt. One reason it contributes is because of the amount of 
land that is on the game reserves allowed for trophy hunting.
    Mr. Connolly. But let me ask you, did the Wildlife 
Conservation Fund support the original Obama ban on wildlife 
trophy hunting?
    Ms. Bennett. The ban that I am familiar with was the one 
that was specific to two countries which were particularly 
corrupt and were not managing their trophies well. And yes, we 
supported that.
    Mr. Connolly. So do you, presumably then if you supported 
it, you did not support the reversal of that ban.
    Ms. Bennett. No. There needs to be controls. There really 
needs to be controls.
    Mr. Connolly. Right.
    Ms. Peters, any comment on that in terms of big game 
trophy?
    Ms. Peters. Not on the trophy issue, no. But on the issue 
of cutting resources, I just want to say as somebody who has 
been out on the front lines of where law enforcement is 
fighting this problem, those law enforcement officials, U.S. in 
particular, in Africa and Asia are incredibly under-resourced, 
still. We have had requests, for example, from the U.S. 
Treasury that would like to put some wildlife traffickers on 
the OFAC list but they have never been given any budget to 
investigate it, so they can only do it if it falls under some 
other organized issue.
    I have worked with agents from Homeland Security, Fish and 
Wildlife law enforcement, and the Drug Enforcement 
Administration while there will be one or two agents covering 
12 or 13 different countries in Africa, each of them wracked by 
organized crime and corruption. We are still, these folks are 
so under-resourced out there and we really need to support them 
better and support private organizations that are out there 
trying to help them.
    Mr. Connolly. So I take what you are saying, bottom line, 
it is bad enough as it is--sweeping cuts in the program will 
only make it worse.
    Ms. Bennett. Exactly. That is what I am saying.
    Mr. Connolly. I thank you.
    Thank you, Mr. Chairman.
    Mr. Royce [presiding]. Thank you. We go now to Mr. Joe 
Wilson of South Carolina. Thank you, Mr. Connolly.
    Mr. Wilson. And thank you, Mr. Chairman. I now yield for 
such time as he may consume to Congressman Steve Chabot of 
Ohio.
    Mr. Chabot. I thank the gentleman for yielding and I won't 
take up much of his time. But I just wanted to follow up on 
what my friend and colleague from the Commonwealth of Virginia 
just said about Trump administration's alleged cuts to various 
programs that protect or save endangered animals or any animals 
around the----
    Mr. Connolly. Would my friend yield?
    Mr. Chabot. It is not my time so let me talk.
    Mr. Connolly. Well, I thought it was your time.
    Mr. Chabot. Only shortly, but it is Mr. Wilson's time.
    Mr. Connolly. Oh.
    Mr. Chabot. He yielded to me.
    In any event, the cuts that were talked about in the Trump 
administration budget never happened. And then to say Congress 
notwithstanding, well, our budgets and what we pass here along 
ultimately with the President, whether it is an omnibus bill or 
whatever it is, that is what ultimately matters to these 
programs. And I think Congress over the years has been pretty 
responsible in a bipartisan manner to make sure that we are 
protecting as much as possible the endangered animals that we 
are talking about whether they are in Africa or here in this 
country for that matter.
    So I just wouldn't leave the impression out there that 
because the President in trying to deal with a $20 trillion 
budget and having limited ability to do that oftentimes cuts 
things all across the board and then when it gets to Congress 
working with the administration we generally, together, do the 
responsible thing which is not to cut back on these important 
programs. And I thank the gentleman for yielding.
    Mr. Wilson. And thank you, and indeed we appreciate the 
active involvement by persons from Ohio and the Old Dominion of 
Virginia.
    Thank you for being here today. And for each of you, U.S. 
support for anti-wildlife trafficking efforts abroad focus on 
sourcing countries where the animals live including in Africa, 
trafficking transit hubs and countries with high demand. U.S. 
agencies involved in such programs include the Departments of 
State, Interior, Justice, and Defense, as well as the FWS and 
the U.S. Agency for International Development.
    U.S. efforts support international conservation 
biodiversity goals including law enforcement capacity building, 
support for rule of law, and prosecutorial activities. 
Sustainable conservation cannot occur without supporting local 
communities through promoting economic growth, strengthening 
health systems, creating jobs, providing education resources, 
and support for good governments. U.S. engagement includes 
working with national legislatures and departments of justice 
across the continent to ensure that the legal framework has 
clear and streamlined conservation and trafficking laws.
    In fiscal year 2017, the U.S. provided just over $90 
million to conservation and trafficking programs. The U.S. also 
provides limited funding to multinational organizations that 
implement wildlife trafficking and conservation programs such 
as the U.S. development program and the World Bank's Global 
Environment Facility.
    The question for each of you beginning with Ms. Peters, 
promoting conservation and wildlife protection requires a whole 
of government approach with the State Department, USAID, 
Department of Interior, and Department of Justice needing to 
coordinate efforts abroad to combat illegal poaching and 
trafficking. Have you seen the coordination play out? What can 
U.S. do to improve our response?
    Ms. Peters. Thank you for that question. I would like to 
second a comment that Mr. Stewart made earlier which is to say 
that the way that I believe that we can improve our 
coordination is to engage our intelligence community, national 
security apparatus, and law enforcement community in targeting 
some of the key networks trafficking wildlife, because they are 
not just trafficking wildlife. Even agencies that don't have a 
mandate or an interest in conservation should be interested in 
these networks for the myriad other crimes that they are 
engaged in.
    Thank you, sir.
    Mr. Wilson. Thank you very much.
    And Mr. Stewart?
    Mr. Stewart. Yes, I agree. I think the one area where there 
is the greatest potential for improvement is by again creating 
systems that ensure that we can use classified as well as 
unclassified data to draw the connections to identify the links 
of how to disrupt the international, criminal international 
syndicates that are involved in not only wildlife trafficking 
but illegal fishing, human trafficking, illegal logging, et 
cetera. These are bad guys and we should use all the resources 
we can to go after them.
    Mr. Wilson. Thank you.
    And Dr. Bennett?
    Ms. Bennett. Thank you very much indeed. Yes, the whole of 
government approach clearly is the only way we are going to 
tackle this one. And by doing so, clearly by tackling wildlife 
crime in a sense it is almost a soft way in to improve 
governance and stability across some of these troubled parts of 
the world. But in addition to the intelligence side of things, 
one of the other sectors which would be really great to be 
fully involved is the financial sector to track money 
laundering and follow the money. And the example of Al Capone 
comes to mind. We might not be able to get them on wildlife 
crimes, but we can get them because they are money laundering. 
Thank you.
    Mr. Wilson. And thank you very much, all of you, for your 
thoughtful response. And thank you, Chairman Royce, and Eliot, 
Ranking Member Engel, for the hearing today.
    Mr. Royce. And if the gentleman would yield, we will work 
with Treasury on that weak link in the chain that you have 
raised, that you both raised.
    We go now to Robin Kelly of Illinois.
    Ms. Kelly. I would like to yield 1 minute of my time to 
Gerry Connolly.
    Mr. Connolly. I thank my friend from Illinois. I want to 
respond to my friend from Ohio. Nice try, but budgets reflect 
values. And the values reflected in the Trump actions in both 
the budget and with respect to advisory bodies and policies and 
regulations with respect to this subject, I believe, create a 
hostile environment and show very little sympathy for the cause 
we are examining today in this hearing. And yes, Congress did 
not act on those budget recommendations. That doesn't mean they 
didn't happen. That doesn't mean those values weren't 
represented by the people who wrote that budget and signed by 
that President. And that is the point made here and it 
shouldn't be covered up. And it wasn't an alleged budget 
recommendation, it was a budget. It was published. It was 
presented to Congress. It is a matter of public record and I 
think it is a shameful public record and it ought to be 
exposed. That is my point and I yield back to my good friend 
from Illinois.
    Ms. Kelly. Thank you. Thank you, Mr. Chairman, for holding 
this hearing today. As a proud co-sponsor of the DELTA Act, I 
am glad that we are having this hearing to highlight 
international illegal trade in wildlife. This issue is not only 
an environmental issue that threatens to wipe out populations 
of endangered species, but it is also a national security 
issue.
    Recently, high demand in Asia has been a driving force in 
the wildlife product trafficking in Africa. This has led to 
terrorist organizations like Boko Haram and Al-Shabaab engaging 
in the wildlife trafficking to finance their operations. Some 
countries in Asia such as China, Hong Kong, and Singapore have 
implemented nearly complete bans on the trade of the elephant 
ivory including putting in place significant restrictions on 
the import of ivory and taking steps to stop their domestic 
ivory trade. The trade, however, has continued with illegal 
trade in endangered wildlife products including elephant ivory, 
rhino horns, and turtle shells worth an estimated $7 billion to 
$10 billion annually.
    Dr. Bennett and Mr. Stewart, with the prevalence of 
poaching on the African continent and its connection with 
terrorism on the continent, African nations are a key player in 
the reduction of illegal wildlife trafficking. What are the 
best cost-effective practices that can be immediately 
implemented to combat the trafficking?
    Ms. Bennett. Thank you very much. One of the first things 
is expanding what we know works on the ground across different 
areas, because we have examples across Africa where actually 
wildlife is being protected well but it needs to be taken up to 
scale. So we need to take SMART patrols and the resources and 
knowledge that we have got and take it up to scale across more 
countries across Africa would be a key first step.
    Ms. Kelly. Thank you.
    Ms. Bennett. And the links with and to persuade governments 
it is the links with security are really important. So, for 
example, in northern Cameroon, a few years ago there was a 
slaughter of about 300 elephants in Bouba Nijida National Park. 
Those were not Cameroonians. They were people coming in on 
horseback very heavily armed from countries to the north. And 
so Cameroon was really forced to act on that because it was a 
security issue and a national sovereignty issue. And so these 
are all linked up----
    Ms. Kelly. Thank you.
    Ms. Bennett [continuing]. In terms of immediate things we 
need to scale up.
    Ms. Kelly. Mr. Stewart, anything to add?
    Mr. Stewart. Yes, a couple quick things. I think the 
increase recently in the budget of INL at the State Department 
to address wildlife trafficking has been very helpful. They are 
great at addressing drugs and other issues that we have been 
more heavily engaged with over the years and they are bringing 
that expertise to fight wildlife trafficking. I think support 
for training that the Justice Department and the local 
Embassies have been doing is very helpful. I think Fish and 
Wildlife and the attaches in Africa have helped provide 
connective tissue to ensure that enforcement agencies in 
different countries coordinate better.
    And, finally, I think the DELTA Act is a great example of 
the right path to trod here. Going in there, listening to 
countries like Angola, building relationships with legislators 
and the executives there, and then explicitly in the DELTA Act 
providing for a path to marshal assistance from government, 
business, and philanthropy, for example, to help Angola on a 
large scale look at land use planning over vast tracts, I think 
that is critical now to be helpful and will pay off longer 
term. And I think that will help show Angola and other 
countries, who at least have expressed to us an interest in 
diversifying their economy, how to do it. That conservation and 
development are not inconsistent and will help foster what is 
needed on a regional basis.
    I think President Masisi in Botswana will bring renewed 
energy from the Botswana side to address these transboundary 
issues, and as Chairman Royce has pointed out there is a really 
unique opportunity in Angola right now.
    Ms. Kelly. I am going to squeeze in while he is not 
looking.
    How should, Ms. Peters, countries be framing the issue 
around socioeconomic and political conditions, because if you 
don't have opportunity then you tend to do things that you 
shouldn't do, so how can we look at other things that they can 
be doing besides this illegal trafficking?
    Ms. Peters. Well, there are some successful alternative 
livelihood programs in certain areas that have reduced 
poaching. There are also numerous examples of places where the 
conservation programs have shared the value of the national 
park or the reserve with the local communities giving them a 
stake in the success and giving them a stake in the 
conservation and those tend to make the communities work harder 
to protect the animals. But the other panelists have both made 
this point better than I do. This isn't the area that I work 
in, but it is extremely important.
    Ms. Kelly. Thank you. I yield back.
    Mr. Royce. Yes, one thing I would add in that, Robin, is 
that what we have here in Angola now is a once-in-a-lifetime 
opportunity because we have peace, we have a new government 
there, we have the opportunity to engage Angola and Namibia and 
Botswana to preserve these resources.
    So we go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you all 
sitting here and very informative and I appreciate the work you 
have done on the endangered species and wildlife trafficking. 
It is a scourge of humanity these people going after and 
killing thousands and tens of thousands of elephants and 
rhinoceros, and we will do anything we can to support that. And 
I commend Chairman Royce for the work he has done over the 
years.
    And it funds so many bad behaviors that work against 
civilized societies, but then you have got to, I think one of 
you brought up you have the human encroachment, you have 
development, you have the illegal trades whether it is drugs, 
human trafficking or wildlife trading. And then I was reading 
from the International Union of Conservation of Nature, made 
quite clear on the reason of the recent decline on the addax, 
playing the blame firmly on poaching by soldiers and these 
soldiers were employed to protect Chinese-owned oil 
installations in Niger.
    And we see this over and over again. You will have a 
country that comes in, they don't have the same values we do 
and they will do whatever they can for enriching their own 
country. They went on to say that the IUCN said the addax 
habitat in the surrounding region became a hot bed of drug 
smuggling, weapons trafficking, political insurgency, and 
illegal wildlife trade following the collapse of Libya, as we 
all know. Thomas Rabeil of the Saharan Conservation Fund added 
that the companies with commercial interests in the region, 
notably China national petroleum corporations, should cooperate 
with wildlife authorities to contribute to the addax 
conservation. And I think that is something as these companies 
and countries go in to develop resources there has to be some 
kind of connectivity that if you are going to do this you need 
to work to protect and preserve these.
    What are your thoughts on that? Dr. Bennett?
    Ms. Bennett. Thank you very much indeed. I couldn't agree 
more it is a problem, but it is a problem that we are 
increasingly aware of and doing our best to address. And one 
way of doing it is, for example, on INL funding is getting the 
links across the continent. So, for example, we now have 
someone working with WCS and the government in Uganda to work 
with the Chinese business community in Uganda to make them 
aware of the poaching issue and to become supportive partners. 
And if that works, it is a new program but if it works that can 
be a really nice example of engaging the Chinese community 
working in Africa.
    Mr. Yoho. Do they have, any other countries have or those 
countries over to there, do they have any policies in place 
that conservation must be a policy of development of those 
resources? Does anybody know?
    Ms. Bennett. I am not aware that countries have that as a 
policy.
    Mr. Yoho. Mr. Stewart?
    Mr. Stewart. Africa, you mean African nations having that 
as a policy?
    Mr. Yoho. Yes.
    Mr. Stewart. I think Botswana over the years has been 
particularly rigorous in scrutinizing investments by the 
Chinese, but I am not sure how formal that is.
    Mr. Yoho. Okay.
    Ms. Peters, do you have any idea?
    Ms. Peters. I am not aware of any country having a----
    Mr. Yoho. Sounds like that is something for us to do here 
then, doesn't it, that we can direct some of that. We have a 
new foreign aid bill going out that is tied into USAID that we 
can help direct some of that. And I just want to add that also 
the IUCN also said additional efforts to monitor and secure 
addax in the wild as well as broad range of other conservation 
actions include rebuilding wild populations with captive-bred, 
i.e., hunting preserves.
    And if you look at, and this is where we run into a little 
bit of a problem here in the United States, if you look out in 
Texas there is 11,000 oryx in captivity. There is over 800 dama 
gazelles and over 5,000 addax out in Texas, and they are on 
hunting preserves. And we have a problem because if people hunt 
them they can't keep the trophy. And I know that goes against 
what Chairman Royce is advocating, and I think there ought to 
be a way that we can come to an agreement that if they are 
captive raised, you can tell by DNA where they come from and we 
can select that way, that is a way of preserving these breeds 
that are being decimated and extinct around the world because 
of illegal activity.
    And it is ironic that one of the things that is going to 
preserve them is the thing that does kill them. It is the 
hunting preserves that have good conservation measures in 
there. But it says in here that the ranchers, that they can't 
keep these if they are not allowed to hunt them and if a person 
can't take the trophy back they aren't going to hunt them, 
therefore those are going to go out of business and it is going 
to put more pressure on the wild.
    So just throwing out there for consideration and I 
appreciate your time and expertise.
    Mr. Royce. Dr. Bennett, do you want to comment maybe on 
some of the complexities or tradeoffs of this and maybe what 
could be done in terms of conservation management with this 
respect? You had mentioned earlier that one of the concerns you 
had with this situation in two countries specifically where 
there was corruption that there wasn't a way forward in terms 
of proper management but that it might be possible if we 
eliminated that corruption to have an effective program that 
would actually help sustain these populations.
    Ms. Bennett. Thank you very much, Mr. Chairman. Yes, that 
is exactly right, if it is well managed. And I mean as, and I 
will take Tanzania as an example and Tanzania has 40,000 square 
kilometers under national parks totally protected. It has 
140,000 square kilometers under game reserves which is 
maintained as wild lands by the fact that it has some economic 
money largely coming from lion hunting in that particular case. 
And so if you lose that 140,000 square kilometers you have lost 
more than half of the wild lands for wildlife within Tanzania.
    But the industry is notoriously corrupt there but if we can 
get it so that it is well managed, and that is going to take a 
huge amount of investment and it is going to take a lot of work 
by a lot of people and it is also going to take a lot of open 
mindedness because a lot of people are not comfortable with it 
as a conservation tool, but if so that could keep a lot of 
lands under wildlife that otherwise would turn into sort of soy 
plantations or something like that and we would lose a lot of 
species.
    Mr. Royce. Right.
    Ms. Bennett. But it does need to be very well regulated and 
managed and we need to be able to get a hold of the corruption.
    Mr. Royce. Thank you, Dr. Bennett.
    We go to Tom Marino of Pennsylvania.
    Mr. Marino. Thank you, Chairman, and thank you all for 
being here. I have been known to be an animal lover to the 
point of when I live out in the country of stopping my truck 
and getting a turtle out of the middle of the road to get it 
over to where it is headed and slamming the brakes on for a 
chipmunk.
    As a state and Federal prosecutor we have put people in 
prison domestically for hunting out of season, for shooting 
protected animals and birds such as eagles, and for importing 
hides and protected animals internationally as well. I like the 
idea because we put some people away based on the fact at the 
Federal level that we followed the money. And as a prosecutor, 
as a U.S. attorney I did that consistently in drug cases. 
Follow the money. You may not be able to get the person with 
the drugs but you can follow the money and put them away from 
that perspective.
    I am constantly watching the programs on the History 
Channel and Discovery about what we are doing to worldwide 
animals and how we are losing them. I have been known to get in 
a couple of fights with people who I see beating an animal or a 
dog or a cat or something to that nature. That is how obsessed 
I am with this, because who is going to protect animals if we 
don't? And often these individuals are called animals that do 
this, but that is an insult to the animal kingdom, calling 
somebody an animal that would hurt an animal other than 
legitimate hunting.
    But what do we do with individuals in other countries who 
it just, they don't think twice about killing these animals? 
What do we do about people who do this on a basis to survive or 
feed their families and what do we do with those individuals 
that are running a business as far as putting them away for a 
very long time when we find them?
    Any response to any of that?
    I will start with Ms. Peters.
    Ms. Peters. Sir, it is an excellent question. I would like 
to make a point that we have done analyses of ivory and rhino 
horn supply chains in a number of sub-Saharan African countries 
including South Africa, Tanzania, Kenya, Uganda to some extent, 
and Gabon. And each of those places, of course there are some 
people who will hunt for sustenance, but it is a very, very 
small impact on the environment compared to the poaching, what 
is going on because of poaching.
    Most poachers, the guy that actually pulls the trigger on 
the .458 or the 12 caliber doesn't even have the money to buy 
the bullet. Those are bullets that sell for $20 to $30 a pop. 
He doesn't have the money to fill the tank that went in the 
vehicle that drove him into the forest. All of that has to be 
financed. We have been working with the agencies that we have 
been supporting to follow the money around wildlife trafficking 
and get it up to the point where the poaching gets financed and 
to try to cut that funding. It is incredibly important.
    We have also worked with the human trafficking NGO, Liberty 
Asia, out of Hong Kong, to develop a system that provides 
typologies about wildlife trafficking networks and human 
trafficking networks to banks around the world. So my colleague 
Kathleen, here, is briefing a number of correspondent banks 
tomorrow about a major wildlife trafficking network in 
Tanzania. We have briefed banks around the world and they are 
starting to shut down the activity as they see it, in part 
because they recognize that these traffickers are also moving 
drugs and guns and things that they need to worry about from a 
legal perspective.
    Mr. Marino. All right, thank you.
    Mr. Stewart and Dr. Bennett, unfortunately between the two 
of you, you have 30 seconds.
    Mr. Stewart. I agree with Ms. Peters in terms of going at 
this at the international level, but I think it is also 
important to note--corruption is a big problem. But in some 
instances local prosecutors, local judges don't have the 
resources to do the basics of how you secure a crime scene, how 
you prosecute a case, so efforts to train them in that is 
important.
    There has also been a lot of success for specialized 
discipline enforcement units. I think particularly the National 
and Transnational Serious Crimes Investigation Unit in 
Tanzania, they work with specialized prosecutors, work with 
specialized judges and have had particular success in getting 
through prosecutions, reaching to the farther out edges of 
syndicates, even in an environment as Dr. Bennett indicated has 
corruption challenges. So I think that is a model that can be 
useful in any of these challenging circumstances.
    Mr. Marino. Thank you. My time is expired. Thank you.
    Mr. Royce. All right, let me thank, Ms. Peters, let me 
thank you, Mr. Stewart, Dr. Bennett, all of you for your good 
work on this issue and your testimony here today. And we are 
going to be in touch with all three of you as we try to address 
some of the issues that you raised here today. So for now in 
terms of this hearing, the hearing stands adjourned.
    [Hearing adjourned.]<greek-l>MARKUP OF H.R. 4819, DELTA 
ACT deg.
    Chairman Royce. We now meet pursuant to notice to markup 
H.R. 2819, the DELTA Act.
    Without objection, the Royce Amendment 119 in the nature of 
a substitute, which was provided to all of you last week, will 
be our base text, and is considered read, and open for 
amendment at any point on H.R. 4819, the DELTA Act.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Royce. All members may have 5 calendar days to 
submit statements or extraneous material for the record.
    And I am now going to recognize myself to speak on this 
bill.
    As we have heard today, greater transparency cooperation is 
essential to advancing conservation and smart development in 
the Okavango River Basin. To that end, today we will consider 
H.R. 4819, the Defending Economic Livelihoods and Threatened 
Animals or DELTA Act.
    Let me give you the three points in terms of what this 
legislation will do. It will strengthen and streamline 
coordination among the Governments of the United States, 
Angola, Botswana, and Namibia, as well as non-governmental 
organizations in the private sector to protect the basin there.
    Second, it is going to prioritize wildlife trafficking and 
anti-poaching programs in the greater region to help save 
elephants and other endangered species.
    And lastly, it will promote sound economic growth for local 
communities through responsible natural resource management.
    So I want to thank the International Conservation Caucus 
co-chair, Representative Jeff Fortenberry, and this committee's 
ranking member, Mr. Engel, for partnering with me on this 
measure.
    And I now recognize the ranking member, Mr. Engel, for his 
remarks.
    Mr. Engel. Mr. Chairman, thank you for holding this markup 
of H.R. 4819, the DELTA Act. I would like to also begin by 
thanking Mr. Fortenberry of Nebraska, a former member of this 
committee, for his initiative in putting forward this 
legislation.
    And as I mentioned before, I would like to commend you, Mr. 
Chairman, for your extraordinary leadership on international 
conservation issues and particularly the fight against wildlife 
trafficking for many, many years. Thank you for what you have 
done.
    The Okavango River Basin in Angola, Botswana, and Namibia 
supports an amazing array of wildlife, including the largest 
remaining concentration of elephants in Africa. It is also home 
to more than 1 million people. This important legislation 
requires the development of a strategy to encourage the 
sustainable management of natural resources in the river basin, 
including the protection of wildlife. This strategy will 
require input from a wide range of stakeholders, including 
national governments, local communities, non-governmental 
organizations, and the private sector.
    The goal here is to support economic development for the 
residents of the region, while preserving unique ecosystems and 
protecting wildlife.
    I would also like to highlight that the DELTA Act has the 
support of key wildlife associations, including the Wildlife 
Conservation Society based on my hometown of Bronx, New York 
and we did hear Dr. Bennett, who is from the Wildlife 
Conservation Society.
    Mr. Chairman, I am proud to be an original co-sponsor of 
this important legislation and I urge all of our colleagues to 
support it.
    I yield back.
    Chairman Royce. Do any other members seek recognition to 
speak on this measure? Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Over the decades it has become apparent that conservation 
efforts must be transboundary and engage entire regions to 
advance sustainable solutions. Endangered and threatened 
species, natural landscapes, and poaching networks do not know 
national boundaries. This requires governments and conservation 
partners to share real-time information, move freely across 
transnational boundaries, and coordinate park protection 
responsibilities.
    These complex arrangements must be outlined in 
intergovernmental agreements to equitably share resource 
protection and benefits. As with our national parks, regional 
cooperation can better facilitate economic development through 
developing infrastructure and a tourism economy.
    Therefore, I strongly commend Jeff Fortenberry for offering 
H.R. 4819, the DELTA Act, and you, Mr. Chairman, for bringing 
it and the ranking member before the committee today, which 
would encourage this kind of transboundary coordination between 
Angola, Botswana, and Namibia, and the greater Okavango River 
Basin.
    I yield back the balance.
    Chairman Royce. Any other members seeking time? If not--
yes, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Chairman Royce. Joe Wilson of South Carolina.
    Mr. Wilson. And thank you, Mr. Chairman. And you definitely 
want to recognize me because I want to begin by thanking you 
and Ranking Member Eliot Engel's work with Congressman Jeff 
Fortenberry for providing the Defending Economic Livelihoods 
and Threatened Animals Act, also known as the DELTA Act, before 
the committee.
    The Okavango is the fourth largest river system in southern 
Africa and has no outlet to the sea. Instead, the water empties 
into a land that flourishes with wildlife. The same river 
supports over 1 million people, potentially creating a long-
term tug of war for the resources of the delta.
    Water resource management has become an increasing concern 
in the region, such as in Cape Town, South Africa where the 
infamous Zero Day or the day when the taps run dry, was 
projected to strike earlier this month but has been delayed 
until next year. This Act promotes technical assistance through 
sound water management that is both safe for the environment 
and wildlife but also aligns with a developing human 
population.
    In the long run, this modest level of coordination helps 
ensure that countries interconnected by the Okavango River 
Basin will continue to remain stable in democracies. The DELTA 
Act encourages transborder cooperation among Botswana, Angola, 
Namibia, and others in order to develop law enforcement and 
park ranger capabilities, which will deter criminals and 
terrorist organizations from poaching and smuggling.
    Being a national park ranger is not a safe occupation. On 
May the 11th, a 25-year-old park ranger in the Democratic 
Republic of Congo named Rachel Masika Baraka was killed while 
protecting tourists from abduction. She was the eighth park 
ranger killed this year. Though this park is much further north 
of Botswana, continued cooperation can help ensure that the 
Okavango remains peaceful.
    This bill acknowledges the opportunity and value provided 
by coordinating the private sector donors and non-governmental 
organizations with governmental institutions in advancing 
conservation efforts through public-private partnerships.
    I am pleased to support and co-sponsor H.R. 4819, the DELTA 
Act and I urge its passage.
    And I yield back my time.
    Chairman Royce. Thank you.
    Any other members seeking time? Hearing no--or anyone 
seeking amendment?
    Hearing no amendments, the chair now moves that the 
committee agree to H.R. 4819, as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measure 
is agreed to.
    Without objection, 4819 is ordered favorably reported in 
the form of a single amendment in the nature of a substitute.
    Staff is directed to make any technical and conforming 
changes and the chair is authorized to seek House consideration 
under suspension of the rules.
    So let me end by thanking all the members for their 
participation today. This markup is adjourned.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


 

                           <all>
</pre></body></html>
